Office of
Inspector General
                    Semiannual Report to the Congress
                             October 1, 2012
                                 through
                             March 31, 2013


                                 Number 48

                                April 17, 2013




                      FARM CREDIT ADMINISTRATION
Farm Credit Administration	                                            Office of Inspector General
                                                                       1501 Farm Credit Drive
                                                                       McLean, Virginia 22102-5090




April 17, 2013


The Honorable Jill Long Thompson, Board Chair and Chief Executive Officer
The Honorable Kenneth A. Spearman, Board Member
The Honorable Leland A. Strom, Board Member
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090

Dear Board Chair Long Thompson and FCA Board Members Spearman and Strom:

Enclosed is the semiannual report on the activities of the Farm Credit Administration’s (FCA or
Agency) Office of Inspector General (OIG) for the period October 1, 2012 through March 31, 2013.
This is the forty-eighth report since the establishment of the OIG on January 22, 1989. I have been
a proud contributor to each report and the substantive efficiencies gained by the FCA during each
reporting period.

I submit this report in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5(b) of the IG Act requires that the FCA Board send this report to the appropriate
Congressional committees and subcommittees within 30 days after the date of this transmittal,
accompanied by management’s report on the status of audit, inspection, and/or evaluation action
items.

During this reporting period, the OIG issued the annual financial audit report. The OIG contracted
with the Bureau of the Public Debt for Brown & Company CPAs, PLLC to perform the audit of FCA’s
financial statements for fiscal year 2012. The audit delivered an unqualified opinion and was issued
November 5, 2012. Please refer to page 3 for further information.

Also, the OIG’s annual evaluation of the Agency’s compliance with the Federal Information Security
Management Act was completed. This annual evaluation was conducted by the OIG’s Senior
Information Technology Auditor and the report was issued November 9, 2012. There were no action
items as a result of this evaluation. Please refer to page 3 for further information. There were no
open audit, inspection, or investigation action items at the end of this reporting period.

Carl A. Clinefelter served as the Inspector General of the FCA from July 2005 until his retirement on
January 3, 2013. Carl’s many years at FCA were honored at a commemorative ceremony at the
FCA OIG. His two-term service as Vice Chair of the Council of Inspectors General on Integrity and
Efficiency (CIGIE) was also recognized by the CIGIE. Since Carl’s departure, cost-savings and
                                                                                                         2

efficiencies have continued to be realized within the OIG as I serve in the roles of Acting IG, Deputy
IG, Counsel, and Director of Investigations. I look forward to continuing a positive and effective
relationship between the OIG and the FCA Board, a partnership striving to strengthen FCA
operations.

If you have any questions, please call me at 4036 or 4030.

Respectfully,




Elizabeth M. Dean
Acting Inspector General

Enclosure
                              Contents



EXECUTIVE SUMMARY…………………………………………………………….……………… 1


BACKGROUND……………………………………………………………………………………… 2 

  FARM CREDIT ADMINISTRATION………………………………………………………………… 2

  FARM CREDIT SYSTEM…………………………………………………………………………… 2


AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED…..………………………….. 3

  FY 2012 INDEPENDENT FINANCIAL STATEMENT AUDIT OF FCA…………………………....... 3

  FY 2012 FEDERAL INFORMATION SECURITY MANAGEMENT ACT EVALUATION……………. 3


AUDITS, INSPECTIONS, AND EVALUATIONS IN PROGRESS….………..………………..... 3 

  TELEWORK PROGRAM……………………………………………………………………………....... 3

  TRAINING EXPENSES AND STUDENT LOAN REPAYMENTS………………………..……………. 3 


MANAGEMENT ADVISORY REPORT ISSUED…..…………………………………………….. 4

INVESTIGATIONS…………………………………………………………………………………... 4 


LEGISLATION AND REGULATIONS…………………………………………………………….. 5 


OTHER ACTIVITIES………………………………………………………………………………... 7 

  QUARTERLY SURVEY OF FARM CREDIT SYSTEM INSTITUTIONS……………………………. 7

  STAFF PARTICIPATION IN ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY….. 7 

  STAFF PARTICIPATION IN AGENCY ORGANIZATIONS…………………………………………. 7 

  STAFF DEVELOPMENT……………………………………………………………………………. 7


ANNEX……………………………………………………………………………………………....... 8


APPENDICES

  APPENDIX A – INDEX OF REPORTING REQUIREMENTS……………………………………...               9

  APPENDIX B – AUDIT, INSPECTION, AND EVALUATION REPORTS ISSUED………………....    10

  APPENDIX C – REPORTS WITH QUESTIONED COSTS………………………………………..                11

  APPENDIX D – REPORTS WITH RECOMMENDATIONS THAT FUNDS

                 BE PUT TO BETTER USE…………………………………………………….                   12

  APPENDIX E – PEER REVIEWS CONDUCTED OF THIS OFFICE………………………………             13

  APPENDIX F – PEER REVIEWS CONDUCTED BY THIS OFFICE………………………….……            14

  APPENDIX G – FCA ORGANIZATIONAL CHART………………………..………………….……                 15

  APPENDIX H – OFFICE OF INSPECTOR GENERAL ORGANIZATIONAL CHART..………….....   16 

  APPENDIX I – GLOSSARY OF TERMS.………..…………………………………………...…….                 17

                            Executive Summary




This Semiannual Report to the Congress summarizes the activities and accomplishments of the
Farm Credit Administration’s (FCA or Agency) Office of Inspector General (OIG) for the period
October 1, 2012 through March 31, 2013. The OIG’s efforts were directed toward implementing
the OIG’s fiscal year (FY) 2013 strategic and operational plan and budget; performing audits,
inspections, and evaluations of FCA programs and operations; conducting investigations, as
necessary; independently and confidentially surveying Farm Credit System (FCS or System)
institutions regarding the effectiveness of the Agency’s examination function and examiners; and
providing objective, independent reporting and counsel to the FCA Board on FCA programs and
operations.

During this reporting period, the Inspector General (IG), Carl A. Clinefelter, retired on January 3,
2013. He was honored for his service during ceremonial gatherings both at the FCA and as
departing Vice Chair of the Council of Inspectors General on Integrity and Efficiency (CIGIE).

The OIG contracted with the Bureau of the Public Debt (BPD) for Brown & Company CPAs,
PLLC (Brown & Co.) to perform the audit of FCA’s financial statements for FY 2012. The audit
delivered an unqualified opinion, was issued November 5, 2012, and was presented to the FCA
Board on January 10, 2013. See page 3 for further information.

Also, the OIG issued an evaluation report on the Agency’s compliance with the Federal
Information Security Management Act (FISMA). There were no recommendations as a result of
this evaluation. The evaluation was conducted by the OIG’s Senior Information Technology (IT)
Auditor. See page 3 for further information.

Additionally, the OIG issued two quarterly reports and the FY 2012 summary report to the Chief
Examiner and FCA Board. These reports tabulate results and capture comments responsive to
the OIG survey questions posed to System institutions regarding the quality of the FCA
examination program.

The OIG maintains five positions: the Inspector General, a Deputy Inspector General (DIG) and
Counsel, a Senior Auditor, a Senior IT Auditor, and an Administrative Assistant. Appendix G
and Appendix H reflect the organizational structure of FCA and the OIG, respectively. Since
January 4, 2013, the Deputy IG/Counsel has served as Acting IG.




            	                                                        	
                                                 1
            	                                                        	
                                  Background



Farm Credit Administration

The FCA is an independent Federal agency of the United States government responsible for the
regulation and examination of FCS institutions chartered under the Farm Credit Act of 1971, as
amended (Farm Credit Act). The FCA is also a “designated Federal entity” within the meaning
of the Inspector General Act of 1978, as amended (IG Act).

As a non-appropriated agency, FCA funds its expenses primarily through assessments to the
institutions it regulates. The Agency’s FY 2013 budget is $61,900,000. Assessments by FCA to
FCS institutions for FY 2013 are $50,000,000 with other sources of funding totaling
$11,900,000. The OIG’s FY 2013 budget is $1,212,318. At the end of this reporting period, FCA
had 265 employees, about half of which are examiners located in five field offices. At the end of
the prior semiannual reporting period, the Agency had 282 employees.

Farm Credit System

The FCS is a Government-sponsored enterprise comprised of Farm Credit banks and 83
lending associations, as of March 31, 2013, in all 50 states and Puerto Rico that primarily make
loans to agriculture. The System raises funds by selling securities in the national and
international money markets through its special purpose entity, the Federal Farm Credit Banks
Funding Corporation. These securities are not guaranteed by the U.S. Government.

The Federal Agricultural Mortgage Corporation (Farmer Mac), also a part of the FCS, is
chartered by the Federal government to provide a secondary market for agricultural mortgage
loans. Farmer Mac is publicly traded and issues its own debt securities.

Additionally, there are four active service corporations organized under the Farm Credit Act that
provide services to FCS entities and eligible borrowers.




           	                                                       	
                                                2
           	                                                       	
                Audits, Inspections, and Evaluations




REPORTS ISSUED
The OIG conducts all audits in accordance with Government Auditing Standards issued by the
Comptroller General of the United States for audits of Federal organizations, programs,
activities, and functions. Inspections and evaluations are conducted in accordance with the
CIGIE Quality Standards for Inspections. Copies of most OIG reports are available on the OIG
web site at www.fca.gov/home/inspector.html, or by contacting the OIG at (703) 883-4030, or by
TTY at (703) 883-4359, or by e-mail at ig_information@fca.gov.


FY 2012 Independent Financial Statement Audit of FCA
The Accountability of Tax Dollars Act of 2002 required FCA and certain other agencies to submit
to Congress and the Office of Management and Budget (OMB) an audited financial statement
each fiscal year.

In continuing to assist the Agency in meeting these requirements, the OIG contracted with the
BPD for Brown & Co. to perform the audit of FCA’s financial statements for FY 2012. The audit
resulted in an unqualified opinion, was issued November 5, 2012, and presented to the FCA
Board on January 10, 2013.


FY 2012 Federal Information Security Management Act Evaluation
The evaluation of the Agency’s compliance with FISMA for FY 2012 was performed by the
OIG’s Senior IT Auditor, using guidelines established by FISMA, OMB, and the National Institute
of Standards and Technology. The report revealed no significant deficiencies and was issued
November 9, 2012.


REPORTS IN PROCESS
FCA’s Telework Program
The audit objective is to determine whether the FCA’s telework program is being effectively
administered.

Training Expenses and Student Loan Repayments
The objective of this audit is to determine the effectiveness of controls related to training,
conferences, and related travel expenses; and student loan repayments.




            	                                                         	
                                                  3
            	                                                         	
MANAGEMENT ADVISORY REPORT ISSUED
OIG Management Advisory Reports are designed to be a quick mechanism to offer the Agency
head suggestions on ways to strengthen Agency operations. The OIG continued to provide
information and best practices related to an advisory issued last reporting period on FCA’s Use
of Social Media.


INVESTIGATIONS
Two allegations of inappropriate conduct and misuse of resources were reviewed, but
unsubstantiated. One of the allegations had been previously advanced and reviewed in a prior
semiannual period. Although unsubstantiated, the same allegation was forwarded to the OIG,
the Chairperson of the Agency, and to a Congressman.

OIG Hotline calls and emails dealing with borrower complaints concerning FCS institutions and
other FCA program issues were referred to the FCA office or other Federal agency responsible
for reviewing such matters.




           	                                                     	
                                               4
           	                                                     	
                    Legislation and Regulations


In furtherance of the OIG’s mandate to review existing and proposed legislation and regulations,
the IG or DIG and Counsel attends joint briefings of the FCA Board on regulations at the
proposed and final stages. The following were reviewed by the DIG and Counsel:

     Legislation
         1)    Pub. L. 112-248 (January 10, 2013), Improper Payments Elimination and
               Recovery Improvement Act of 2012
         2)    S. 241, H.R. 6406, The Non-Federal Whistleblower Protection Act
         3)    S. 300, Purchase and Travel Card Controls
         4)    S. 743, Whistleblower Protection
         5)    S. 1222/H.R. 2146, Digital Accountability and Transparency Act of 2011 or DATA
               Act
         6)    S. 2105, The Cybersecurity Act of 2012; S. 3342, SECURE IT; S. 3414
         7)    S. 3286 Comprehensive Contingency Contracting Reform Act of 2012
         8)    H.R. 314, Inspector General Act of 2013
         9)    H.R. 1211, The Freedom of Information Act Oversight and Implementation Act of
               2013.
        10)    H.R. 1163, The Federal Information Security Act Amendment of 2013
        11)    H.R. 6016, The Government Employee Accountability Act
        12)    H.R. 6634, To Change the Effective Date for the Internet Publication of Certain
               Financial Disclosure Statements

     Final Rules
        13)    Investment Management      

        14)    Farmer Mac Investment Management 

        15)    Liquidity and Funding


     Proposed Rules
        16)	 Capital Planning at Farmer Mac

     Bookletter
        17) 	 Providing Credit to Farmers and Ranchers Operating in Local/Regional Food
              Systems




           	                                                      	
                                                  5
           	                                                      	
Informational Memoranda
  18) Impact of Biggert-Waters Act
  19) LARS and FCSLoans1 Data Collection
  20) Truth in Lending and Consumer Leasing- Annual Adjustments




    	                                                 	
                                     6
    	                                                 	
                              Other Activities


Quarterly Survey of Farm Credit System Institutions
The OIG administers an ongoing survey of FCS institutions regarding the quality and
consistency of the Agency’s examination function and examiners. The OIG issues a quarterly
report and, at the end of each FY, a summary report on the surveys’ results to the Chief
Examiner and the FCA Board.

During this 6-month period, the OIG sent surveys to the Audit Committee Chairmen, Chief
Executive Officers, and Boards of 37 FCS institutions. Quarterly reports for the 3-month periods
ended September 30 and December 31, 2012, were issued by the OIG to the Chief Examiner
and the FCA Board. A summary FY 2012 report was also issued.

Staff Participation in Activities within the Inspector General Community
OIG staff members are encouraged to take part in organizations that contribute to the mission of
the Inspectors General community, as well as their individual professional development. Most
staff members are actively involved in one or more professional organizations, as well as
activities within the CIGIE.

The IG served as the Vice Chairperson of CIGIE, was a member of CIGIE’s Executive Council,
helped chair the monthly meetings of all Inspectors General comprising CIGIE, and participated
as a member of the CIGIE’s Inspection and Evaluation (I&E) Committee. The Acting IG has
been attending the foregoing meetings since January 2013.

The OIG DIG and Counsel meets monthly with counsels to the other Inspectors General.
Counsel also attends DIG and Directors of Investigations meetings.

The OIG Senior Auditor and Senior IT Auditor attend Federal Audit Executive Committee
meetings and conferences. The Senior Auditor participates as a member of the I&E
Committee’s Roundtable. The Senior IT Auditor is actively involved in the IT Subcommittee of
the Federal Audit Executive Committee and attends local ISACA (formerly known as Information
Security and Control Association) meetings.

Staff Participation in Agency Organizations
OIG employees are active on Agency workgroups and task forces, as appropriate.

Staff Development
OIG employees continually seek ways to improve skills and become knowledgeable in the
initiatives of the community of Inspectors General. Audit and legal staff must meet continuing
education requirements. Individual development plans are used to identify long and short-term
career goals along with specific training and developmental needs. These plans are geared to
enhance individual skills in the performance of official duties and meet the criteria needed to
achieve OIG performance goals and objectives.

           	                                                      	
                                               7
           	                                                      	
                                        Annex



This annex is provided in accordance with the National Defense Authorization Act for FY 2008.

This referenced statute requires all Inspectors General appointed under the IG Act to include an
annex to their semiannual reports as follows:

    1) listing all contract audit reports issued during the reporting period containing significant
       audit findings;

    2) briefly describing the significant audit findings in the report; and

    3) specifying the amounts of costs identified in the report as unsupported, questioned, or
       disallowed.

Significant audit findings are defined as unsupported, questioned, or disallowed costs in excess
of $10,000,000, or other findings that the Inspector General determines to be significant. It
defines contracts as a contract, an order placed under a task or delivery order contract, or a
subcontract.

No contract audit reports meeting these criteria were issued on behalf of the OIG during this
reporting period.




           	                                                         	
                                                 8
           	                                                         	
                                Appendixes



APPENDIX A

                     Index of Reporting Requirements


 SECTION                                          TITLE                      Page

    4(a)(2)      Review of legislation and regulations                       5 - 6


    5(a)(1)      Significant problems, abuses, and deficiencies              None 


    5(a)(2)      Recommendations for corrective action                       None


    5(a)(3)      Prior recommendations not yet implemented                   None 


    5(a)(4)      Matters referred to prosecutive authorities                 None


    5(a)(5)      Information unreasonably refused or not provided            None 


    5(a)(6)      List of reports issued                                       3


    5(a)(7)      Summaries of significant reports                             3


    5(a)(8)      Management decisions with questioned costs                   11


                 Management decisions on recommendations that funds be put
    5(a)(9)                                                                   12

                 to better use

   5(a)(10)      Prior audit reports unresolved                              None


   5(a)(11)      Significant revised management decisions                    None 


                 Significant management decisions with which the Inspector
   5(a)(12)                                                                  None 

                 General disagreed

   5(a)(13)      Compliance of Agency financial management system             3


  5(a)(14)(15)   Peer reviews conducted of this OIG                           13


   5(a)(16)      Peer reviews conducted by this OIG                           14


                 FY 2008 National Defense Authorization Act Citation and
      845                                                                     8

                 Requirement


            	                                                     	
                                              9
            	                                                     	
APPENDIX B 





                Audit, Inspection, and Evaluation Reports Issued

                                                                            Recommendations
                               Number of Agreed Upon
          Report                                        Questioned Costs   That Funds Be Put to
                              Actions/Recommendations
                                                                                Better Use


Audit of the FCA Financial
                                         0                    $0                   $0
Statement 2012


Evaluation of the FISMA –
                                         0                    $0                   $0
FY 2012


                      Total              0                    $0                   $0




            	                                                      	
                                                10
            	                                                      	
APPENDIX C 





                              Reports with Questioned Costs

                                                                Number                 Dollar Value

                                                                     Recom-      Questioned   Unsupported
                                                          Reports
                                                                    mendations     Costs         Costs

A. For which no management decision has been
   made by the commencement of the reporting                0            0          $0            $0
   period.

B. Which were issued during the reporting
   period.
                                                            0            0          $0            $0

                                   Subtotals (A+B)          0            0          $0            $0

C. For which a management decision was made
   during the reporting period.
                                                            0            0          $0            $0

   (i) dollar value of disallowed costs                     0            0          $0            $0

   (ii) dollar value of costs not disallowed                0            0          $0            $0

D. For which no management decision has been
   made by the end of the reporting period.
                                                            0            0          $0            $0

E. For which no management decision was
   made within six months of issuance.
                                                            0            0          $0            $0




             	                                                           	
                                                     11
             	                                                           	
APPENDIX D 





              Reports with Recommendations that Funds
                         be Put to Better Use

                                                                 Number of
                                                     Number of
                                                                  Recom-      Dollar Value
                                                      Reports
                                                                 mendations

A. For which no management decision has been
   made by the commencement of the reporting            0            0            $0
   period.

B. Which were issued during the reporting period.       0            0            $0

                                  Subtotals (A+B)       0            0            $0

C. For which a management decision was made
   during the reporting period.
                                                        0            0            $0

   (i) dollar value of recommendations that were
       agreed to by management
                                                        0            0            $0

      - based on proposed management action             0            0            $0

      - based on proposed legislative action            0            0            $0

  (ii) dollar value of recommendations that were
       not agreed to by management
                                                        0            0            $0

D. For which no management decision has been
   made by the end of the reporting period.
                                                        0            0            $0

E. For which no management decision was
   made within six months of issuance.
                                                        0            0            $0




          	                                                      	
                                               12

          	                                                      	
APPENDIX E 





                     Peer Reviews Conducted of this Office

                                                                     Function        Peer Review
         Peer Review Performed By             Date of Report
                                                                     Reviewed          Rating


U.S. Commodity Futures Trading Commission
                                             February 4, 2011           Audit           Pass
Office of Inspector General



U.S. Securities and Exchange Commission
                                            December 26, 2007       Investigations      Pass
Office of Inspector General




           	                                                    	
                                             13
           	                                                    	
APPENDIX F 





                     Peer Reviews Conducted by this Office

                                                             Function   Peer Review
               Peer Review Of          Date of Report
                                                             Reviewed     Rating



Consumer Product Safety Commission
                                       May 23, 2011            Audit       Pass
Office of Inspector General



U.S. International Trade Commission
                                      January 16, 2013         Audit       Pass
Office of Inspector General




           	                                             	
                                      14
           	                                             	
         APPENDIX G


                                                   FCA ORGANIZATIONAL CHART

                                                        Farm Credit Administration Board                                  Office of
                                                                                                                                      1
                                                                                                                     Inspector General
                                                                           Board
                                                         Jill Long Thompson, Board Chair
                                                         Kenneth A. Spearman, Member                                 Elizabeth M. Dean
                                                              Leland A. Strom, Member                                     (Acting)


                      Secretary to the Board

                          Dale L. Aultman                                                                         Office of
                                                                                                              Congressional and
                                                                                                                Public Affairs

                        Equal Employment                                                                      Michael A. Stokke
                                                              Office of the Chairman
                       and Inclusion Director                        and CEO
                              Thais Burlew                      Jill Long Thompson                            Office of Secondary
                                                                                                                               2
                                                                                                               Market Oversight

                        Designated Agency                                                                         Laurie A. Rea
                          Ethics Official

                       Wendy R. Laguarda



                      Special Advisor YBS &
                       Local Food Systems

                          Mark Johansen
                                                                    Office of the Chief
                                                                    Operating Officer

                                                                 William J. Hoffman




       Office of Management                  Office of Examination                           Office of                               Office of
                                                                                                                                                 3
              Services                                                                    Regulatory Policy                       General Counsel
                                                S. Robert Coleman
         Stephen G. Smith                                                             Gary K. Van Meter                           Charles R. Rawls




1
    The Dodd-Frank Wall Street and Consumer Protection Act, Public Law 111-203, amended the Inspector General Act, 5 U.S.C. App 3,
    changing the meaning of “head of the designated Federal entity.” The effect is that the Inspector General now reports to the FCA Board.
    Prior to the amendment, the FCA Chairman was the “head of the designated Federal entity” under the IG Act and the IG reported to the
    Chairman.
2
    Reports to the Board for policy and to the CEO for administration.
3
    Maintains a confidential advisory relationship with each of the Board members.




                          	                                                                                   	
                                                                               15
                          	                                                                                   	
 APPENDIX H




   Office of Inspector General Organizational Chart



                                 Inspector General

                                  Carl A. Clinefelter
                                Retired January 3, 2013


     Administrative Assistant

             Debra M. Miller




 Deputy Inspector                    Senior Auditor                     Senior Information
General and Counsel                                                     Technology Auditor
                                 Veronica G. McCain
 Elizabeth M. Dean                                                           Tammy F. Rapp
  Acting IG since
  January 3, 2013




                               Elizabeth M. Dean, Acting Inspector General          March 2013




         	                                                       	
                                             16

         	                                                       	
APPENDIX I 




                                  Glossary of Terms


Agency            – Farm Credit Administration
BPD               – Bureau of the Public Debt
Brown & Co.       – Brown & Company CPAs, PLLC
CIGIE             – Council of the Inspectors General on Integrity and Efficiency
DIG               – Deputy Inspector General
Farm Credit Act   – Farm Credit Act of 1971, as amended
Farmer Mac        – Federal Agricultural Mortgage Corporation
FCA               – Farm Credit Administration
FCS               – Farm Credit System
FISMA             – Federal Information Security Management Act
FY                – Fiscal Year
H.R.              – House Resolution
IG                – Inspector General
IG Act            – Inspector General Act of 1978, as amended
I&E               – Inspection and Evaluation
ISACA             – Information Security and Control Association
IT                – Information Technology
OE                – Office of Examination
OIG               – Office of Inspector General
OMB               – Office of Management and Budget
System            – Farm Credit System




           	                                                    	
                                             17
           	                                                    	
            R E P O R T 

    Fraud    |   Waste   |     Abuse   |       Mismanagement 





            FARM CREDIT ADMINISTRATION
            OFFICE OF INSPECTOR GENERAL

     Phone: Toll Free (800) 437-7322; (703) 883-4316 


     Fax: 	 (703) 883-4059 


     E-mail: fca-ig-hotline@rcn.com

     Mail: 	 Farm Credit Administration 

              Office of Inspector General 

              1501 Farm Credit Drive 

              McLean, VA 22102-5090





	                                          	
                             18

	                                          	
